                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS
                                                                                                            I
                                                                                                            I/
                                             CLOSEOUT MEMORANDUM

 Case Number: 1-05080046                                                                      Page 1 of 1
                                                                                                            /

          As part of a proactive review of grants awarded under the "US-Egypt Joint Fund Program," a         .
          preliminary inquiry was opened to assess if a private company1an awardee of the program had       1
          used participant funds as prescribed by NSF's policies and procedures. After review of the
          financial information associated with the award2 and numerous requests for additional .
          information, the preliminary inquiry was closed and an investigation was initiated.
                                                                                                             i
          OIG reviewed the information submitted by the company and determined that additional
          information was needed to support additional monies paid to a foreign collaborator3on the grant.
          The foreign collaborator was initially budgeted to receive approximately $28,000; however, the
          company received $35,000 without any explanation for the excess funds. OIG contacted the
          Chief Operating Officer ( ~ 0 0for  ) ~the awardee to request an explanation for the additional I
          funds expended to the foreign collaborator and a statement of work. The COO contacted our
          office and stated that the request for information was delegated to the Principal 1nvestigators for
          the grant and that he would be able to better address our questions. We received the additional
          information needed to substantiate the claim attributed to           We concluded that all monies'
          were spent in accordance with NSF policies and procedures. Accordingly, this case is closed.




          ' footnote redacted
           footnote redacted
           footnote redacted
           footnote redacted
           footnote redacted                                                                                     /I




NSF OIG Form 2 (1 1/02)
